HHS/OIG, Audit -"Review of the Ability of Non-Custodial Parents to Contribute Towards Their Childrens Medicaid Costs in Connecticut,"(A-01-02-02502)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of the Ability of
Non-Custodial Parents to Contribute Towards Their Childrens Medicaid Costs
in Connecticut," (A-01-02-02502)
May 21, 2003
Complete
Text of Report is available in PDF format (873 kb). Copies can also be
obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
We statistically sampled a population of 33,791 Medicaid eligible children
in Connecticut whose non-custodial parents (NCP) were paying child support
and were ordered to provide medical support for their children.  We estimate
that the NCPs of approximately 12,500 of these children could have contributed
toward part or all of their childrens medical costs paid by Medicaid from
April 2001 through March 2002.  We also estimate that about $9.3 million
could have been collected from these NCPs, covering most of the $13.8 million
in Medicaid costs incurred by the State and Federal Governments for medical
services provided these children.  Among other things, we recommended
that Connecticut; (1) modify existing medical support orders to require NCPs
to contribute towards the Medicaid costs for their children if health insurance
is not otherwise available at reasonable costs, and (2) modify existing child
support state laws to provide standard guidelines for magistrates for determining
child and medical support orders, and adopt a standard method for determining
the amount a NCP can pay as reimbursement of Medicaid costs. State officials
concurred with our recommendations.